                            CLOSEOUT FOR M-97010002

       On 11 January 1997, an NSF program officer1brought an allegation of misconduct in
science to OIG's attention. The ~omplainant,~    an ad hoc reviewer of an NSF propo~al,~
alleged that the subject4 had plagiarized text into the NSF proposal from a proposal
previously declined by a joint U.S.-foreign government foundation (other proposal).'
According to the complainant, the other proposal had been submitted by the complainant and
the subject's s~pervisor.~
                         OIG noted, however, that the subject had signed the other proposal
as a co-PI.

       OIG wrote to the complainant who provided a copy of the other proposal as well as
materials he said he sent the subject's supervisor to assist in the preparation of the other
proposal. He explained that the subject had permission to use the materials only when
preparing the other proposal. According to the complainant, the subject copied background
information and objectives fkom the complainant's materials and the other,proposal into the
NSF proposal. He stated that no scientific ideas had been misappropriated. As additional
evidence that the subject had copied these materials, the complainant listed references that
were common to the subject's NSF proposal, the other proposal, and the materials he had
provided to the subject's supervisor.

       OIG noted that the other proposal was submitted a year and a half before the subject's
NSF proposal at a time when the subject was a young post-doctoral researcher in the
supervisor's laboratory. The other proposal was signed by the supervisor as PI and the
subject as co-PI, included the subject in the budget, and assigned the subject most of the
responsibility for the U.S. portion of the research. The other proposal described a
collaborative effort that included the complainant and two other scientists that were listed as
co-PIS,' but neither the complainant nor the other two scientists signed the proposal. OIG
determined that the other proposal appeared to have been prepared, in part, from the
                            CLOSEOUT FOR M-97010002

materials the complainant provided, and that it was likely that the subject assisted in its
development. OIG noted that the subject's proposal contained text and references copied
directly from the other proposal, not from the materials provided by the complainant to the
subject's supervisor.

        OIG determined that, because the subject was a co-PI 'of the other proposal and had
participated in its development, the subject's use of materials from it was reasonable. The
apparently copied portion of the other proposal into the subject's NSF proposal contained
only the research project on which the subject was to be a participant, excluding the
complainant's and the two other scientists' proposed project. Further, the subject stated, in
the NSF proposal, that the proposed research had been developed in the supervisor's
laboratory and that the supervisor would provide expertise and collaborate with the subject
on the project. OIG noted that the subject and the supervisor published several papers
together on the same general topic as the NSF proposal, consistent with the continued
collaborative relationship between the subject and the subject's former supervisor.

        Although the subject did apparently copy text and references fiom the other proposal,
and this information was extracted from materials originally provided by the complainant,
OIG concluded that these actions did not seriously deviate from accepted practices for the
following reasons: 1) the subject was a co-PI on the other proposal, the source of the copied
text and references; 2) the subject acknowledged the proposed work as the continuation of a
previous and ongoing collaborative effort with the supervisor; 3) the subject had not
misappropriated any scientific ideas. The NSF proposal described only that portion of the
other proposal that had originally been assigned to the subject and the subject's supervisor;
and 4) the subject copied none of the text from the complainant's materials.

       This case is closed and no further action will be taken.

cc: Staff Scientist, AIG-Oversight, legal, IG




                                         page 2 of 2
